           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE MEASURE REVIEW:
   RELIABILITY OF THE DATA USED
   TO MEASURE THE TIMELINESS OF
     PROCESSING SUPPLEMENTAL
    SECURITY INCOME DISABILITY
              CLAIMS

    December 2000   A-02-99-11002




AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                           ."."SEC(j
                                                          O()
                                                           ~~
                                                         WI"'US~"\1
                                                         \ IIIIII1
                                                                 ~.t
                                                           '"IvIS~t-
                                            SOOAL           SECURITY
                                              Office of the Inspector   General
MEMORANDUM
Date:      December      1,   2000                                                       Refer To:

           William     A. Halter,
To:        Deputy      Commissioner

           of Social     Security


From:      Inspector     General



           Performance   Measure Review: Reliability of the Data Used to Measure the Timeliness
Subject:
           of Processing Supplemental  Security Income Disability Claims (A-02-99-11 002)



           The Government      Performance and Results Act (GPRA), Public Law No.103-62,       107
           Stat. 285 (1993), requires the Social Security Administration    (SSA) to develop
           performance indicators that assess the relevant service levels and outcomes of each
           program activity. GPRA also calls for a description of the means employed to verify and
           validate the measured values used to report on program performance.         SSA has stated
           that one of the means to ensure the reliability of its performance data is through various
           audits and evaluations conducted by the Office of the Inspector General (GIG). The
           objective of this audit was to assess the reliability of SSA performance   measurement
           data for the following GPRA performance indicator:

                                                            Fiscal Year (FY)             FY 1999
                         Indicator                             1999 Goal            Actual Performance

           The percent of Supplemental     Security
           Income (551) Disability claims
           decided within 60 days of filing 1
                                                               26 Percent              22.3 Percent



           RESULTS            OF REVIEW

           The data used to measure the percent of SSI Disability claims processed was found to

           be reliable. While we found the data reliable, conditions existed which could cause an

           inaccuracy in the reported performance measure in the future. A control weakness was

           identified, which may lead to some countable claims not being included in the

           calculation of performance  in this area. Additionally, SSA combines monthly averages

           when calculating the annual SSI Disability statistic. This does not take into

           account varying monthly claim volume and can lead to an overstatement       or



           1 Effective FY 2000, SSA has eliminated this indicator from its performance measurement.   It does
           however remain as a strategic objective.
account varying monthly claim volume and can lead to an overstatement or
understatement of the performance measure statistic. SSA also lacks sufficient
documentation of the process used to accumulate and generate the SSI Disability
processing time statistic.


THE PERFORMANCE MEASURE FOR SSI DISABILITY PROCESSING TIME IS
RELIABLE

The FY 1999 goal for the percent of SSI Disability claims decided within 60 days of filing
was 26 percent. SSA stated actual performance was 22.3 percent. SSA calculated this
statistic through the compilation of 12 months of data from the SSI Claims Report
(SSICR). Individual monthly data are also available from monthly Processing Times
Reports.

Our review disclosed that the reported performance of 22.3 percent was a reliable
measurement of performance. This conclusion was based on a replication of the
monthly statistics from the monthly Processing Times Reports for March through May
1999. We performed a parallel simulation of the performance measure using the criteria
in effect at the time of our review. There were no differences between SSA’s reported
statistics for April and May and our calculation of performance. We found, however, a
slight but immaterial difference in March’s reported performance measure statistic. The
cause of the discrepant statistic was the inclusion of duplicate claims. The duplicate
claims included in the March statistic were approximately 3,000 out of more than
116,000. We were not able to determine the cause for the inclusion of duplicate claims
in March.

The results of our replication compared to SSA’s reported calculation are as follows:


           Percent of SSI Disability Claims Decided Within 60 Days of Filing

MONTH                                   PER SSA                       PER OIG

MARCH 1999                               23.2%                          23.3%
APRIL 1999                               23.2%                          23.2%
MAY 1999                                 23.5%                          23.5%


Due to the unavailability of data, we were not able to test all 12 months. Since the
process was the same for the entire FY, there was no indication that the other months in
FY 1999 that were not tested would have yielded different results.




                                            2
A CONTROL WEAKNESS FOR THE ROUTING OF CLAIM DATA WAS DISCLOSED

PricewaterhouseCoopers (PwC), a certified public accounting firm, was contracted to
assess the reliability of data used to measure SSI Aged claims processing. In its report
(CIN A-02-99-11005), PwC identified a control weakness that could affect the accuracy
of the performance measure. Tests performed identified that the number of claims in
the input file to the Exception Control System did not agree with the number of claims in
the output file. The Exception Control System, which assures that an initial claim is
complete, is not supposed to edit or exclude any input records. Claim edits or
exclusions do not occur until later in the process. SSA personnel agreed that Exception
Control input should equal output and were unable to provide any explanations for the
discrepancy. Since the flow of data for all SSI claims is the same at this stage of the
process, this situation is similarly applicable to SSI Disability claims.

This weakness was highlighted in PwC’s report but did not impact on its conclusion that
the performance measures tested were reasonably stated. We concur with PwC’s
determination.


SSA DID NOT CONSIDER CLAIM VOLUME WHEN CALCULATING CUMULATIVE
MONTHLY STATISTICS

SSA averaged the 12 monthly SSI Disability claim processing time percentages instead
of 12 months of SSI Disability claims processed to calculate the FY statistic reported in
the Accountability Report. The averaging of monthly percentages would be acceptable
if the volume of SSI claims processed was consistent from month to month. During
FY 1999, however, the monthly claim volume for all SSI Disability claims decided
ranged from a low of 96,592 for December 1998 to a high of 145,229 for September
1999. When monthly claim volume varies, the possibility of a distortion in the
cumulative processing time percentage exists with SSA’s current method of computing
the processing time statistic.

We recalculated the monthly performance measure statistics using two different
methods. First, we calculated the statistic based on the method used by SSA. Each
month’s individual processing time statistic was added together and divided by the total
number of months. The second method used was an average based on cumulative
monthly claim volume. While the percentage calculated by both methods was the same
for the FY total, differences did occur for some of the months. Although not significant
(one-tenth of one percent), these differences highlight that a claim volume average is
the mathematically preferred way to calculate the percentages.




                                            3
PERFORMANCE MEASURE DOCUMENTATION WAS LACKING

SSA lacks sufficient performance measure documentation for the processes involved in
the generation of the SSI Disability processing time statistic.

The performance measure statistic for the percent of SSI Disability claims decided
within 60 days of filing is based on a formula created by SSA systems staff. The
formula, which in effect decides which SSI claims should be included in the statistic,
cannot be deciphered and, consequently, could not be reviewed. We were advised by
SSA staff that various changes were made to the original programming language over
the years and, therefore, the identity of the formula was lost. Accordingly, we were
forced to verify and evaluate the calculation accuracy of the performance measure
statistic through an application of the criteria that should have been used. These criteria
were obtained from the Management Information Manual (MIM), Part II.

The Office of Management and Budget Circular No. A -123, Management Accountability
and Control states that “ The documentation for transactions, management controls,
and other significant events must be clear and readily available for examination.”
Furthermore, GPRA requires that agencies “...describe the means to be used to verify
and validate measured values.” A significant lack of documentation does not provide
the audit trail necessary to assist verification of the performance measures.


CONCLUSIONS AND RECOMMENDATIONS

The data used to measure the percent of SSI Disability claims processed within 60 days
of filing was found to be reliable. We did find, however, that conditions existed that
could cause an inaccuracy in the reported performance measure in the future. The
conditions need to be corrected so that complete reliance can be placed on the reported
performance measure. Accordingly, we recommend that SSA take the following
corrective measures to improve the process used to measure SSI Disability processing
time performance:

1. Exclude duplicate claims from the calculation of the performance measure statistic;

2. 	Perform a validation test on the input to and output from the Exception
    Control System to ensure that no claims are being excluded;

3. 	Use claim volume when combining monthly statistics to calculate an average
    for the cumulative performance measure;

4. 	Provide an adequate audit trail to document the processes involved in the
    generation and accumulation of the performance measure; and

5. 	Establish policies and procedures for the retention of performance measure
    documentation.


                                             4
AGENCY      COMMENTS

In response to our draft report, SSA agreed with all of our recommendations.

SSA noted that duplicate claims should not be counted in the calculation of the

performance measure and system changes have recently been made to correct

the problem. The Exception Control System will also be monitored to make sure

records are processed and counted properly. SSA agreed that the performance

measure calculation should be based on claim volume. However, SSA contends

it does use claim volume rather than the combining of monthly averages as

reported by the GIG.


SSA has also acknowledged that an adequate audit trail documenting the

processes involved in the generation and accumulation of the performance

measure should be provided. As such, SSA is replacing the Management

Information (MI) systems with new MI Architecture, which will provide enhanced

audit capability.    The new MI Architecture will also increase the retention period

for data to facilitate the verification of summary statistics. (See Appendix D for

SSA's comments to our draft report).



OFFICE    OF THE INSPECTOR            GENERAL       RESPONSE

We are pleased that SSA agrees with our recommendations.      However, we

believe that SSA did not consistently use cumulative claims volume when

calculating the performance measure reported in the Monthly Status Reports

during FY 1999. Our analysis disclosed differences for three of the Monthly

Status Report percentages reported by SSA when compared to cumulative claim

data.





                                           5
                            APPENDICES


APPENDIX A - Background


APPENDIX B - Scope and Methodology


APPENDIX C - Flowchart of SSI Disability Processing Time


APPENDIX D - Agency Comments


APPENDIX E - Contacts and Staff Acknowledgements

                                                                             Appendix A


                              BACKGROUND
The Social Security Administration oversees two long-term disability programs. The first
is Disability Insurance (DI) which is authorized under title II of the Social Security Act.
DI makes monthly payments to disabled workers. The second is Supplemental Security
Income (SSI) which is authorized under title XVI of the Social Security Act and provides
monthly payments to disabled individuals whose income and resources fall below a
certain level.

To determine eligibility, the claimant must first file a disability claim with SSA.
Personnel in one of SSA’s approximately 1,300 field offices (FO) conduct the initial
interview with disability applicants and assist in completing the application. Applications
for SSI Disability are prepared using the Modernized SSI Claims System (MSSICS).
Interviews are conducted via the telephone or in person. Initial interviews are made to
determine the applicant’s non-medical eligibility on the basis of income, resources, and
work history. Basic medical information concerning the disability, medical treatments,
and identification of treating sources is also obtained.

Upon meeting the non-medical eligibility requirements, SSA sends the claims file to the
servicing Disability Determination Services (DDS) office, a State agency SSA contracts
with, to make the individual determination of disability. Some states have several DDS
offices and some less populated states share DDSs with bordering states. The FO
forwards the application and all information gathered to the DDS. The DDS requests
medical records from the individual’s treating physicians and other medical treating
sources. If these treating sources do not provide sufficient evidence to make a
decision, the DDS will arrange for medical and/or psychological examinations and tests
with consulting physicians. The DDS makes a disability decision after all necessary
information is obtained. The FO is notified of the decision and a letter is sent informing
the claimant of the decision and of his/her appeal rights.

Once the decision is made, an Initial Decision Date (IDD) is posted to the Supplemental
Security Record and claim data are forwarded to the SSI Claims Exception Control
System. This system makes sure the claim is complete before handing off the data to
the SSI Claims Report (SSICR) which is actually a process that compiles the claims
data for inclusion in various management information reports. The performance
measure included in the Accountability Report is obtained from the GETSSICR
(produced by SSICR) module, specifically cell 406. This cell contains the formula that
determines which claims should be included in the performance measure statistic.
                                                                             Appendix B


               SCOPE AND METHODOLOGY
Our objective was to assess the reliability of the Social Security Administration's
performance measurement data for the percent of Supplemental Security Insurance
Disability claims decided within 60 days of filing.

To determine the process of SSI Disability claims from initial contact by an individual to
the calculation of the performance measure, discussions were held with various SSA
personnel from Baltimore and Region II. Particular emphasis was made within the
Office of Information Management. It was responsible for various stages of the process;
most importantly, the accumulation of data and calculation of the SSI Disability statistic.

We assessed the reliability of the data by replicating the performance measure statistic
for three months in Fiscal Year (FY) 1999. Initially, our objective was to assess the
FY 1998 performance measure. However, SSA’s file retention policy prevented us from
accomplishing that objective. We did select March through May 1999, which was the
most current period of data available at the time of our request. Since the same system
was used for the entire FY as the three months reviewed, we believe our examination
can be extrapolated to the final FY statistic published in the FY 1999 Accountability
Report.

We performed our analysis on two different sets of data files for each of the months
reviewed. A file that is produced by the SSI Claims Exception Control System,
SSA.ZS.ZSSICPT, was examined along with applicable files (referred to as Paraselect
files) produced by SSICR. Criteria containing inclusion, exclusion and exception details
for SSI Disability claims to be considered in the performance measure were obtained
from the Management Information Manual, Part II. Application of the criteria to the data
files was accomplished through the use of Interactive Data Extraction and Analysis
software.

The FY performance measure statistic is a compilation of 12 months of data. The
Annual Performance Plan Status Report (Status Report), updated monthly on SSA’s
intranet, provides a cumulative summary of the statistic during the FY. Monthly data are
also available from monthly Processing Times Reports, which provide regional and
national statistics as well as the denominator used in the SSI Disability processing time
statistic. Processing Times Reports for the entire FY were obtained and compared to
the SSI Disability statistic on the Status Report. Our replicated statistics for March
through May 1999 were also compared to Processing Times Report data.

The review of controls over the various processing stages of SSI Disability claims was
based primarily on previous reviews performed by PricewaterhouseCoopers (PwC).
PwC is a certified public accounting firm, contracted to perform the FY 1998 and 1999
Financial Statement Audits and audits of certain performance measures related to SSI
Aged claims processing.

The entity audited is the Office of Information Management within the Deputy
Commissioner for Systems

Our audit was performed in accordance with generally accepted government auditing
standards. We performed our work in Baltimore, Maryland and New York, New York
from January 1999 through May 2000.
                          Appendix C


 FLOWCHART OF SSI DISABILITY

PROCESSING TIME PERFORMANCE

         MEASURE

                  Applicant makes initial                  Application               CR reviews                    Applicant mails
 Start            contact over the phone               is taken over the             application                signed application to
                  or initial field office visit          phone by CR                and mails it to                CR along with
                                                                                      applicant                 requested documents


Applicant comes                      If applicant does not meet
into FO for initial                      preliminary criteria, a
      review                              denial notice form
                                     SSA-L991-U3 is generated


                             CR completes                                    MSSICS                MSSICS               Applicant
    CR does                                                                                                                             CR completes
                           application; verifies      CR enters data         performs             generates            reviews and
   preliminary                                                                                                                           electronic
                              and copies               into MSSICS         (surface) edit         completed                signs
     review                                                                                                                              application
                               documents                                      checks              application           application



           Creates                       DDS inputs receipt            DDS gathers               DDS makes a
         medical folder                 of case on the NDDS            and reviews                 decision*
         and sends to                   which interfaces with          medical data
           the DDS                          SSA systems



                        SSR is updated with
                       IDD and claim data is
                        routed to Exception                                   ZCSTATS is a                  ZSSICPT
                                                                                                                                        SSICR: T16
                             Control**                                       daily file of EOL           Monthly file of
                                                                                                                                        processing
                                                                               (end of line)            EOL records for
                                                                                                                                        time system
                                                                                  records               delivery to SSICR

          ZCDUCIS                            ZCXMAS
         Contains IC                    Recirculates the
      transactions from                 data until initial
         SSI update                         claims are                                                       Processing                  GETSSICR
                                                                                    Paraselect
          operations                         complete                                                        Time Report                 PM from here
 *percentage is selected for OQA review
 **Exception Control builds a statistical record for each initial claim processed, updates pending records and end of line records for claims clearances
                   Appendix D


AGENCY COMMENTS

                                                    ;M  """ SfC'(;
                                                          I ID :-t.
                                                                ;


                                                        ~"4-inY.t'~.P

                                        SOCIAL            SECURItY

MEMORANDUM


           QCT 2 !   20CO                                                       Refer To: SlJ-3

To:       JamesG. Ruse,Jrf
          InspectorGeneral

          William A. Halter ~11
          Deputy Commissioner of Social Security

Subject   Office of the Inspector General (OIG) Draft Report, "Perfonnance Measure Review:
          Reliability of the Data Used to Measure the Timeliness ofProcessing Supplemental Security
          Income Disability Claims" (A-O2-99-11 002)-INFORMA TION



          Our comments to the subject report are attached. Staff questions may be directed to
          Neil Cunningham on extension 52290.

          Attachment:
          SSA Response
          SlJ-3:Nei1 Cunningham:jj 10/10/00
          21999016a:OIG Audits
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON
THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
"PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA USED
TO MEASURE THE TIMELINESS OF PROCESSING SUPPLEMENTAL SECURITY
INCOME DISABILITY CLAIMS (A-02-99-11002)


We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

OIG Recommendation 1

SSA should exclude duplicate claims from the calculation of the performance measure statistic.

Comment

We agree that no duplicate claims should be counted in the calculation of the performance
measure. A number of systems changes have been made recently that should correct the
anomalies that OIG found. SSA will continue to monitor the operation to assure that records are
processed and counted properly.

OIG Recommendation 2

SSA should perform a validation test on the input to and output from the Exception Control
System to ensure that no claims are being excluded.

Comment

We agree. SSA will continue to monitor the operation of the Exception Control System to make
sure that records are processed and counted properly.

OIG Recommendation 3

SSA should use claim volume when combining monthly statistics to calculate an average for the
cumulative performance measure.

Comment

We agree that the calculation should not be based on combining monthly averages. In fact, SSA
does not do this. In researching this issue, we found that there has been a misunderstanding
about the way SSA performs monthly statistical calculations. SSA’s Office of Systems provides
information on the percent of SSI Disability claims processed for performance measurement
tracking based on cumulative claims volume.




                                              D-1
OIG Recommendation 4

Provide an adequate audit trail to document the processes involved in the generation and
accumulation of the performance measure.

Comment

We agree with this recommendation. The OIG audit revealed several long-standing deficiencies
in Management Information (MI) systems. While these deficiencies do not necessarily create
erroneous results, they do make it difficult to review and audit them. SSA is replacing these
systems with the MI Architecture. The new MI Architecture will provide access to a level of
data which will facilitate the verification of summary statistics, increase the retention period for
data to provide enhanced audit capability and integrate documentation for performance measure
calculations. Further, the repository function of the MI Architecture will provide both business
and systems documentation of the data. The MI Architecture is being developed incrementally.
The portion that addresses Title XVI processing time measurements will be in place by October
2001.

OIG Recommendation 5

SSA should establish policies and procedures for the retention of performance measure
documentation.

Comment

We agree with this recommendation. Again, as part of the Agency’s MI Architecture
replacement, we will provide access to a level of data that will facilitate the verification of
summary statistics and increase the retention period for data to provide enhanced audit
capability. As previously stated, the repository function of the MI Architecture will provide both
business and systems documentation of the data.

Other Comments

In Appendix A, Background – We recommend that the last sentence of the first paragraph be
changed. Enter the words, “and resources” after “income” and delete the “s” from “falls.”




                                                D-2
                                                                             Appendix E


                OIG CONTACTS AND STAFF

                  ACKNOWLEDGEMENTS


OIG Contacts

Frederick C. Nordhoff, Director, Financial Management and Performance Monitoring
Audit Division, (410) 966-6676

Timothy F. Nee, Deputy Director, (212) 264-5295

Staff Acknowledgements

In addition to those individuals named above:

   Robert T. Blake, Senior Auditor-in-Charge

   Jackie Patel, Auditor

   Patrick Kennedy, Audit Manager

   Annette Derito, Program Analyst

For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification
Number A-02-99-11002.
                           DISTRIBUTION SCHEDULE


                                                                            No. of
                                                                            Copies

Commissioner of Social Security
                                               1
Management Analysis and Audit Program Support Staff, OFAM
                    10
Inspector General
                                                             1
Assistant Inspector General for Investigations
                                1
Assistant Inspector General for Executive Operations
                          3
Assistant Inspector General for Management Services
                           1
Assistant Inspector General for Audit
                                         1
Deputy Assistant Inspector General for Audit
                                  1
 Director, Systems Audit Division
                                             1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Issue Area Team Leaders                                                       25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                     1
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG’s public
affairs, media, and interagency activities and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                 1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                       1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                       1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                       1
Chairman, Committee on Appropriations, U.S. Senate                              1
Ranking Minority Member, Committee on Appropriations, U.S. Senate               1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                 1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                    1
Chairman, Committee on Finance                                                  1
Ranking Minority Member, Committee on Finance                                   1
Chairman, Subcommittee on Social Security and Family Policy                     1
Ranking Minority Member, Subcommittee on Social Security and Family Policy      1
Chairman, Senate Special Committee on Aging                                     1
Ranking Minority Member, Senate Special Committee on Aging                      1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                                1
President, National Council of Social Security Management Associations,
  Incorporated                                                                  1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                  1
Social Security Advisory Board                                                  1
AFGE General Committee                                                          9
President, Federal Managers Association                                         1
Regional Public Affairs Officer                                                 1


Total                                                                          98
